No. 19A-------------------In The
Supreme Court of the United States
-------------------Automotive Body Parts Association,
v.

Applicant,

Ford Global Technologies LLC.
-------------------APPLICATION FOR EXTENSION OF TIME TO FILE
PETITION FOR WRIT OF CERTIORARI
-------------------To the Honorable John G. Roberts, Jr., Chief Justice, as Circuit Justice for the
United States Court of Appeals for the Federal Circuit:
Pursuant to Court Rule 13.5, Automotive Body Parts Association (ABPA),
respectfully requests a 60-day extension of time, to and including February 10, 2020,
within which to file a petition for a writ of certiorari in this case. The Court of Appeals
for the Federal Circuit issued its sealed opinion on July 11, 2019 and its public
opinion (identical to its sealed opinion) on July 23, 2019. See App. A. Rehearing was
denied on September 13, 2019, without opinion. See App. B. Absent an extension of
time, a petition for a writ of certiorari would be due December 12, 2019. Ford Global
Technologies LLC (FGTL) consents to this request.

1

This case presents a substantial and important question of federal law: how
to determine the article of manufacture when applying the patent exhaustion and
repair doctrines in design patent cases? This case involves design patents directed
toward portions of a vehicle hood and portions of a vehicle headlamp, both expressly
intended for attachment to a vehicle.

Below, the Court of Appeals for the Federal

Circuit held that when applying the patent exhaustion and repair doctrines, the
article of manufacture is determined solely by looking at what is claimed in the design
patent.
In Samsung v. Apple, 137 S.Ct. 429, 196 L.Ed.2d 363 (2016), this Court
addressed a substantially related question of how to determine the article of
manufacture when calculating damages in a design patent case under 35 U.S.C. §
289. This Court stated “‘[a]rticle of manufacture’ has a broad meaning,” 137 S.Ct. at
434, and “the term ‘article of manufacture’ is broad enough to encompass both a
product sold to a consumer as well as a component of that product.” Id. at 435. The
district court on remand in Samsung adopted a four-part test proposed by the United
States for determining the article of manufacture in the context of section 289. See
Apple, Inc. v. Samsung Electronics Co. Ltd., 11-cv-01846, *13, *19, *35 (N.D. Cal.,
October 22, 2017). Significantly, the test adopted is substantially different than the
Federal Circuit’s approach in this case because, in Samsung’s four-part test, the scope
of the claim is not the sole factor considered. ABPA submits that clarifying the
appropriate analysis for determining the article of manufacture when applying the
patent exhaustion and repair doctrines is at least of equal importance as it is for

2

determining article of manufacture in the context of section 289. In the exhaustion
and repair context, the issue potentially affects the enforceability of all design patents
related to repair and replacements parts.
The Federal Circuit’s test in this case, which focuses solely on how a patent is
claimed, is improper and unworkable when applied to the predictably wide variety of
design patent cases because a design patent can claim the entire design for an article
or just a portion thereof. See In re Zahn, 617 F.2d 261, 267 (CCPA 1980). Portion
claiming necessarily means that a claimed design simultaneously may be embodied
in a parent article, a component part, a combination of component parts, or portions
thereof. And since design portions can be claimed in many different ways that need
not follow the contours or boundaries of articles or their components, a test that relies
exclusively on claiming cannot reliably and consistently predict the correct article of
manufacture for purposes of patent exhaustion and doctrine of repair analyses.
ABPA submits that the appropriate test for determining the article of
manufacture in the exhaustion and repair doctrine context for design patents is an
embodiment test similar to that used in method patent cases. See Quanta Computer
Inc. v. LG Electronics, Inc., 553 U.S. 617 (2008). If an article of manufacture sold
embodies the claimed design, then the patent exhaustion and repair doctrines should
apply to the article of manufacture sold. On the facts here, since the vehicle sold
embodies the design portions claimed, the sale of the vehicle exhausts all design
patent rights embodied in the vehicle and an implied license exists to repair the
vehicle using replacement parts. This implied license thus includes the right to

3

manufacture and sell the parts necessary to repair the vehicle, regardless of whether
the parts also embody the designs claimed.
ABPA’s position is consistent with this Court’s recent reaffirmation of the
breadth of the patent exhaustion doctrine in Impression Prods., Inc. v. Lexmark Int'l,
Inc., 137 S. Ct. 1523, 1529, 1531 (2017), where this Court “conclude[d] that a
patentee’s decision to sell a product exhausts all of its patent rights in that item …”
and “[t]he sale ‘terminates all patent rights to that item.’” (citing Quanta Computer,
supra, at 625) (method patent). The Court’s illustration for why the exhaustion
doctrine does not permit restraints on alienation of patent rights used vehicle repair
as the illustration:
Take a shop that restores and sells used cars. The business works
because the shop can rest assured that, so long as those bringing in the
cars own them, the shop is free to repair and resell those vehicles. That
smooth flow of commerce would sputter if companies that make the
thousands of parts that go into a vehicle could keep their patent rights
after the first sale. Those companies might, for instance, restrict resale
rights and sue the shop owner for patent infringement. And even if they
refrained from imposing such restrictions, the very threat of patent
liability would force the shop to invest in efforts to protect itself from
hidden lawsuits. Either way, extending the patent rights beyond the
first sale would clog the channels of commerce, with little benefit from
the extra control that the patentees retain.
Id. at 1532.
This example illustrates why the embodiment test proposed by ABPA is
appropriate. Unless the ambiguity and uncertainty over “article of manufacture” in
the design patent exhaustion and repair doctrine context is resolved with a
straightforward embodiment test, “the very threat of patent liability [will] force the

4

shop to invest in efforts to protect itself from hidden lawsuits” and “clog the channels
of commerce.” Id.
A 60-day extension of time is needed to prepare and file a petition for a writ of
certiorari. Counsel of record in this Court, a solo practitioner, has been substantially
engaged in working on other cases and matters since rehearing was denied in this
case on September 13, 2019 including without limitation: (1) filing an opening
appellate brief in Ford Global Technologies LLC v. New World International, Inc., et.
al, 19-1746, now pending in the United States Court of Appeals for the Federal
Circuit; (2) resolving and closing a complex multiparty transaction in a case pending
before the United States Court of Appeals for the Second Circuit, Mini Melts USA,
Inc. v. Mini Melts, Inc., 17-2990; and (3) dispositive briefing, discovery, and trial
preparation in a design patent infringement case now pending in the Northern
District of Texas, Super-Sparkly Safety Stuff, LLC v. Skyline USA, Inc., 3:18-CV0587. Further, applicant ABPA retained Supreme Court co-counsel only recently, on
November 11, 2019.
* * * * *
For the foregoing reasons, ABPA respectfully requests that the time within
which to file a petition for a writ of certiorari be extended by 60 days, to and including
February 10, 2020.

*****

5

Respectfully submitted,

______________________
Robert G. Oake, Jr.
Counsel of Record
OAKE LAW OFFICE
700 S. Central Expy.
Suite 400
Allen, Texas 75013
214.207.9066
rgo@oake.com
November 27, 2019

6

CERTIFICATE OF SERVICE
Pursuant to Rules 29.3 and 29.5 of the Rules of this Court, I certify that all
parties required to be served have been served. On November 27, 2019, I caused a
copy of the foregoing Application for Extension of Time Within Which to File a
Petition for a Writ of Certiorari to be served by United States Postal Service, priority
mail postage prepaid, on the below-named counsel for FGTL:

Jessica L Ellsworth
Hogan Lovells US LLP
Columbia Square
555 Thirteenth Street, NW
Washington, DC 20004
(202) 637-5886

_______________________
Robert G. Oake, Jr.
Counsel of Record
November 27, 2019

7

APPENDIX A
(Unsealed Opinion)

Case: 18-1613

Document: 51-2

Page: 1

Filed: 07/11/2019

United States Court of Appeals
for the Federal Circuit
______________________

AUTOMOTIVE BODY PARTS ASSOCIATION,
Plaintiff-Appellant
v.
FORD GLOBAL TECHNOLOGIES, LLC,
Defendant-Appellee
______________________
2018-1613
______________________
Appeal from the United States District Court for the
Eastern District of Michigan in No. 2:15-cv-10137-LJMRSW, Judge Laurie J. Michelson.
______________________
SEALED OPINION ISSUED: July 11, 2019
PUBLIC OPINION ISSUED: July 23, 2019 *
______________________
ROBERT GLENN OAKE, JR., Oake Law Office, Allen, TX,
argued for plaintiff-appellant. Also represented by PAUL
KITTINGER, Cardelli Lanfear PC, Royal Oak, MI.
JESSICA LYNN ELLSWORTH, Hogan Lovells US LLP,
Washington, DC, argued for defendant-appellee. Also represented by KATHERINE BOOTH WELLINGTON; FRANK A.
This opinion was originally filed under seal and has
been unsealed in full.
*

(1 of 18)

Case: 18-1613

2

Document: 51-2

Page: 2

Filed: 07/11/2019

AUTO. BODY PARTS ASS’N v. FORD GLOB. TECHS., LLC

ANGILERI, MARC LORELLI, Brooks Kushman PC, Southfield,
MI.
______________________
Before HUGHES, SCHALL, and STOLL, Circuit Judges.
STOLL, Circuit Judge.
This case involves both differences and similarities between design patents and utility patents. A design patent
protects a “new, original and ornamental design for an article of manufacture.” 35 U.S.C. § 171(a). While established law bars design patents on primarily functional
designs for lack of ornamentality, utility patents must be
functional to be patentable. In many other ways though,
design and utility patents are similar. Section 171(b) of
Title 35 demands as much, directing that the requirements
that apply to “patents for inventions shall apply to patents
for designs” unless otherwise provided.
Here, we decide what types of functionality invalidate
a design patent and determine whether long-standing
rules of patent exhaustion and repair rights applicable to
utility patents also apply to design patents. Automotive
Body Parts Association (ABPA) asks us to hold that the
aesthetic appeal—rather than any mechanical or utilitarian aspect—of a patented design may render it functional.
And it asks us to expand the doctrines of exhaustion and
repair to recognize the “unique nature” of design patents.
Both theories invite us to rewrite established law to permit
ABPA to evade Ford Global Technologies, LLC’s patent
rights. We decline ABPA’s invitation and affirm the district court’s summary judgment.
BACKGROUND
I
Ford’s U.S. Patent No. D489,299 and U.S. Patent
No. D501,685 protect designs used in certain models of
Ford’s F-150 trucks. The D’299 patent, titled “Exterior of

(2 of 18)

Case: 18-1613

Document: 51-2

Page: 3

Filed: 07/11/2019

AUTO. BODY PARTS ASS’N v. FORD GLOB. TECHS., LLC

3

Vehicle Hood,” claims “[t]he ornamental design for exterior
of vehicle hood.” Figure 1, below, illustrates the hood.

The D’685 patent, titled “Vehicle Head Lamp,” claims
“[t]he ornamental design for a vehicle head lamp,” as
shown in Figures 1 and 2, reproduced below.

The inventors of these designs are artists holding Bachelor
of Fine Arts degrees from the College for Creative Studies.
In a declaration, one inventor explained that the inventors
had “full control and responsibility for the exterior appearance of the . . . Ford F-150 truck,” that “the design team
created and selected part designs based on aesthetic appearance,” and that although engineers reviewed the final
designs, “[t]here were no changes to the aesthetic

(3 of 18)

Case: 18-1613

4

Document: 51-2

Page: 4

Filed: 07/11/2019

AUTO. BODY PARTS ASS’N v. FORD GLOB. TECHS., LLC

designs of the[] parts based on engineering or functional
requirements.” J.A. 2538–39.
II
ABPA, an association of companies that distribute automotive body parts, clashed with Ford at the International
Trade Commission when Ford accused a number of ABPA
members of infringing the D’299 and D’685 patents, among
others. The ITC actions eventually settled, but only after
the administrative law judge ruled that “respondents’ [invalidity] defense that the asserted patents do not comply
with the ornamentality requirement of 35 U.S.C. § 171 has
no basis in the law,” J.A. 256, and that “there is no legal
basis for respondents’ assertion of [unenforceability based
on] either the patent exhaustion or permissible repair doctrines,” J.A. 242.
Undeterred, ABPA sued Ford in district court, seeking
a declaratory judgment of invalidity or unenforceability of
the D’299 and D’685 patents. ABPA eventually moved for
summary judgment. The district court considered ABPA’s
arguments and denied the motion, noting that ABPA “effectively ask[ed] this Court to eliminate design patents on
auto-body parts.” Auto. Body Parts Ass’n v. Ford Glob.
Techs., LLC, 293 F. Supp. 3d 690, 694 (E.D. Mich. 2018).
Though Ford had not moved for summary judgment, the
district court announced its intention to enter judgment in
favor of Ford sua sponte pursuant to Federal Rule of Civil
Procedure 56(f)(1). Id. at 707. ABPA responded, agreeing
that it had not “include[d] any additional argument, authorities, or evidence beyond that which has already been
considered by this Court,” and stating that it “d[id] not object to the prompt entry of final judgment so that [it could]
file a notice of appeal.” J.A. 2149. The district court entered summary judgment, and ABPA appeals.

(4 of 18)

Case: 18-1613

Document: 51-2

Page: 5

Filed: 07/11/2019

AUTO. BODY PARTS ASS’N v. FORD GLOB. TECHS., LLC

5

DISCUSSION
We review the district court’s sua sponte grant of summary judgment under the law of the regional circuit. See
Charles Mach. Works, Inc. v. Vermeer Mfg. Co., 723 F.3d
1376, 1378 (Fed. Cir. 2013). In the Sixth Circuit, “[t]he
substance of the district court’s decision is reviewed de
novo under the normal standards for summary judgment.”
Leffman v. Sprint Corp., 481 F.3d 428, 430 (6th Cir. 2007)
(“The district court’s procedural decision to enter summary
judgment sua sponte, however, is reviewed for abuse of discretion.” (quoting Shelby Cty. Health Care Corp. v. S.
Council of Indus. Workers Health & Welfare Trust Fund,
203 F.3d 926, 931 (6th Cir. 2000))). Accordingly, we determine whether, after weighing all inferences in favor of
ABPA, Ford is entitled to judgment as a matter of law. 1 See
Leary v. Daeschner, 349 F.3d 888, 897 (6th Cir. 2003).
I
We first address ABPA’s invalidity arguments. Section 171 of Title 35 authorizes patents claiming “new, original and ornamental design[s] for an article of
manufacture.” 35 U.S.C. § 171(a) (emphasis added). Our
precedent gives weight to this language, holding that a design patent must claim an “ornamental” design, not one
“dictated by function.” See, e.g., High Point Design LLC v.
Buyers Direct, Inc., 730 F.3d 1301, 1315 (Fed. Cir. 2013).
We have recognized, however, that a valid design may contain some functional elements. After all, “a design patent’s

Ordinarily, we review a district court’s determination of whether a patented design is invalid due to functionality for clear error. See Ethicon Endo-Surgery, Inc. v.
Covidien, Inc., 796 F.3d 1312, 1328 (Fed. Cir. 2015). ABPA
invites us to revisit this standard and establish de novo review. Given the de novo standard inherent in review of
summary judgment, we do not reach this question.
1

(5 of 18)

Case: 18-1613

6

Document: 51-2

Page: 6

Filed: 07/11/2019

AUTO. BODY PARTS ASS’N v. FORD GLOB. TECHS., LLC

claim protects an article of manufacture, which ‘necessarily
serves a utilitarian purpose.’” See Sport Dimension, Inc. v.
Coleman Co., 820 F.3d 1316, 1320 (Fed. Cir. 2016) (quoting
L.A. Gear, Inc. v. Thom McAn Shoe Co., 988 F.2d 1117,
1123 (Fed. Cir. 1993)). But a design patent may not claim
a “primarily functional” design. Id. “If [a] particular design is essential to the use of the article, it can not be the
subject of a design patent.” L.A. Gear, 988 F.2d at 1123.
While “[w]e have not mandated applying any particular test,” certain considerations assist courts in assessing
whether a design is dictated by function. Ethicon, 796 F.3d
at 1329. These include:
[W]hether the protected design represents the best
design; whether alternative designs would adversely affect the utility of the specified article;
whether there are any concomitant utility patents;
whether the advertising touts particular features
of the design as having specific utility; and whether
there are any elements in the design or an overall
appearance clearly not dictated by function.
Berry Sterling Corp. v. Pescor Plastics, Inc., 122 F.3d 1452,
1456 (Fed. Cir. 1997). We have often emphasized the presence or absence of alternative designs, noting that the existence of “several ways to achieve the function of an article
of manufacture,” though not dispositive, increases the likelihood that a design serves a primarily ornamental purpose. Id. (quoting L.A. Gear, 988 F.2d at 1123); see also
Nordock, Inc. v. Sys. Inc., 803 F.3d 1344, 1361 (Fed. Cir.
2015) (affirming ornamentality where record showed “alternate designs available achieve the same utilitarian purpose”), vacated on other grounds, 137 S. Ct. 589 (2016);
Rosco, Inc. v. Mirror Lite Co., 304 F.3d 1373, 1378
(Fed. Cir. 2002) (“[I]f other designs could produce the same
or similar functional capabilities, the design of the article
in question is likely ornamental, not functional.”).

(6 of 18)

Case: 18-1613

Document: 51-2

Page: 7

Filed: 07/11/2019

AUTO. BODY PARTS ASS’N v. FORD GLOB. TECHS., LLC

7

A
ABPA posits (without record support) that consumers
seeking replacement parts prefer hoods and headlamps
that restore the original appearance of their vehicles. It
concludes that there is a functional benefit to designs that
are aesthetically compatible with those vehicles. See, e.g.,
Appellant’s Br. 8–9 (“The function of the claimed designs
includes their appearance . . . .”). From there, rather than
arguing that Ford’s designs are functional because they
achieve some mechanical or utilitarian goal, ABPA argues
that Ford’s hood and headlamp designs are functional because they aesthetically match the F-150 truck. But ABPA
does not identify, nor can we find, any design patent case
ruling aesthetic appeal of this type functional.
We hold that, even in this context of a consumer preference for a particular design to match other parts of a
whole, the aesthetic appeal of a design to consumers is inadequate to render that design functional. As the Supreme
Court acknowledged almost 150 years ago, “giving certain
new and original appearances to a manufactured article
may enhance its salable value, [and] may enlarge the demand for it.” Gorham Mfg. Co. v. White, 81 U.S. 511, 525
(1871). But regardless of the market advantage conferred
by a patented appearance, competitors may not utilize a
protected design during the patent’s life. See id.; see also
35 U.S.C. § 289. To hold that designs that derive commercial value from their aesthetic appeal are functional and
ineligible for protection, as ABPA asks, would gut these
principles. The very “thing . . . for which [the] patent is
given, is that which gives a peculiar or distinctive appearance,” its aesthetic. Gorham, 81 U.S. at 525. If customers
prefer the “peculiar or distinctive appearance” of Ford’s designs over that of other designs that perform the same mechanical or utilitarian functions, that is exactly the type of
market advantage “manifestly contemplate[d]” by Congress in the laws authorizing design patents. Id.

(7 of 18)

Case: 18-1613

8

Document: 51-2

Page: 8

Filed: 07/11/2019

AUTO. BODY PARTS ASS’N v. FORD GLOB. TECHS., LLC

B
ABPA’s contrary arguments are unpersuasive. It first
asks us to borrow the principle of “aesthetic functionality”
from trademark law. In that context, courts have explained that a party cannot use trademark protection to
prevent its competitors from using “important product ingredient[s],” Qualitex Co. v. Jacobson Prods. Co., 514 U.S.
159, 170 (1995), or “from making their products as visually
entrancing as [its] own,” Pub’ns Int’l, Ltd. v. Landoll, Inc.,
164 F.3d 337, 339 (7th Cir. 1998) (Posner, J.) (explaining
that trademark and trade dress protection are unavailable
“if consumers derive a value from the fact that a product
looks a certain way that is distinct from the value of knowing at a glance who made it”). In Qualitex, the Supreme
Court permitted a party to trademark a particular color
only after explaining that protection might not be available
if the “color serve[d] a significant nontrademark function.”
Qualitex, 514 U.S. at 170.
ABPA acknowledges that no court has applied “aesthetic functionality” to design patents, but it asks us to become the first. Appellant’s Br. 28–29. We decline. Though
trademarks and design patents have certain similarities,
see id. at 29–30, it does not follow that trademark principles apply equally to design patents. Trademarks and design patents serve different purposes and have different
governing law. Trademarks promote competition by permitting a perpetual monopoly over symbols that “distinguish[] a firm’s goods and identif[y] their source, without
serving any other significant function.” Qualitex, 514 U.S.
at 166. Trademarks ensure that a particular producer
reaps the rewards—and bears the risks—of its products’
quality and desirability. See id. at 163–64. It follows that
a company may not indefinitely inhibit competition by
trademarking features, whether utilitarian or aesthetic,
“that either are not associated with a particular producer
or that have value to consumers that is independent of
identification.” Pub’ns Int’l, 164 F.3d at 339; see also

(8 of 18)

Case: 18-1613

Document: 51-2

Page: 9

Filed: 07/11/2019

AUTO. BODY PARTS ASS’N v. FORD GLOB. TECHS., LLC

9

Qualitex, 514 U.S. at 164–65 (holding companies may not
“inhibit[] legitimate competition” by trademarking desirable features to “put competitors at a significant non-reputation-related disadvantage”). In contrast, design patents
expressly grant to their owners exclusive rights to a particular aesthetic for a limited period of time. See Qualitex,
514 U.S. at 164; see also U.S. Const. art. I, § 8, cl. 8. The
considerations that drive the aesthetic functionality doctrine of trademark law simply do not apply to design patents.
ABPA also attempts to justify its functionality argument with reference to our case law, but it misunderstands
our precedent. In Best Lock Corp. v. Ilco Unican Corp.,
94 F.3d 1563 (Fed. Cir. 1996), we considered a design patent for a key “blade,” the portion of the key that interacts
with a lock to open or close it. Id. at 1564. The parties
agreed that “the key blade must be designed as shown in
order to perform its intended function—to fit into its corresponding lock’s keyway. An attempt to create a key blade
with a different design would necessarily fail because no
alternative blank key blade would fit the corresponding
lock.” Id. at 1566. On those facts, we affirmed the district
court’s finding that the claimed key blade design was dictated solely by function, and the design patent was invalid.
Id. ABPA argues that only Ford’s patented designs aesthetically “match” the F-150, 2 and attempts to analogize
Best Lock to the instant case. But Best Lock turned on the
admitted fact that no alternatively designed blade would
mechanically operate the lock—not that the blade and lock

ABPA also briefly suggests that insurers require
repair parts to use Ford’s original designs with the F-150
but cites no evidentiary support. ABPA’s own witness explained that insurers simply pay a sum of money for repairs; they do not dictate whether a repair is even made.
J.A. 1312.
2

(9 of 18)

Case: 18-1613

10

Document: 51-2

Page: 10

Filed: 07/11/2019

AUTO. BODY PARTS ASS’N v. FORD GLOB. TECHS., LLC

were aesthetically compatible. Id.; see also Static Control
Components, Inc. v. Lexmark Int’l, Inc., 697 F.3d 387, 395,
422 (6th Cir. 2012) (holding a printer cartridge design functional where “each company’s cartridges will work with
only its brand of printers” and “the design of the printer
dictated the exact design of the cartridge”).
Best Lock is distinguished for yet another reason. Ford
introduced abundant evidence of alternative headlamp and
hood designs that physically fit its trucks. See Auto. Body
Parts, 293 F. Supp. 3d at 703 (reproducing images);
J.A. 2442–43. ABPA’s own witnesses testified to the existence of “performance parts” that have a different “design or
shape” than the manufacturer’s parts so that they have
“some aesthetic appeal or something like that.” J.A. 940–
41; see also J.A. 1312–13 (testifying that customers select
performance parts because “[t]hey want [their vehicles] to
look different”). And ABPA admitted that a “performance
part” “will fit the associated vehicle . . . but may differ in
appearance from the original part.” J.A. 1330; see also
J.A. 1340 (same). On these facts, Best Lock bears little similarity to this case.
Similarly, ABPA urges us to rule that Ford’s designs
are not a “matter of concern” to consumers. We have explained that a design is generally not a “matter of concern,”
and lacks ornamentality, if it may not be observed or if it
is assessed only for functionality. See In re Webb, 916 F.2d
1553, 1557–58 (Fed. Cir. 1990). ABPA avers that consumers assess Ford’s designs only to assess their aesthetic compatibility with the F-150. But by definition, if a consumer
assesses the aesthetic of a design in considering whether to
purchase it, the design is a matter of concern. See id. Indeed, ABPA and its witnesses admitted that customers select replacement parts from among multiple different
designs based on their preferred aesthetic, further undermining ABPA’s position. See J.A. 940–41, 1312–13, 1330,
1340. And regardless, the district court found that “it is
beyond reasonable debate that the design of an auto-body

(10 of 18)

Case: 18-1613

Document: 51-2

Page: 11

Filed: 07/11/2019

AUTO. BODY PARTS ASS’N v. FORD GLOB. TECHS., LLC

11

part is important to consumers at least when they are deciding which car to buy.” Auto. Body Parts, 293 F. Supp. 3d
at 701. ABPA fails to explain how that well-supported
finding constitutes error.
Finally, ABPA asks this court to rule, as a matter of
policy, that Ford’s design patents may be enforced only in
the initial market for sale of the F-150, and not in the market for replacement components. Appellant’s Br. 36.
ABPA argues that a market-specific rule is appropriate because customers have different concerns in different contexts. It declares that customers care about design in the
initial sales market, but not when they select replacement
parts. But ABPA cites no supporting facts. Instead, it ignores abundant record evidence regarding performance
parts available as replacements for customers who “want
[their vehicles] to look different.” J.A. 1312–13. It cites no
patent case to support its argument. And it seeks to sidestep our precedent, which asks “whether at some point in
the life of the article an occasion (or occasions) arises when
the appearance of the article becomes a ‘matter of concern.’” Webb, 916 F.2d at 1557 (emphasis added). Finding
neither legal nor factual support for ABPA’s argument, we
reject it. 3 We therefore affirm the district court’s determination that ABPA failed, as a matter of law, to prove Ford’s
designs functional by clear and convincing evidence. See
Ethicon, 796 F.3d at 1328 (discussing burden and standard
of proof).

A bill seeking to create a market-based analysis
specifically for auto-body design patents was introduced in
a previous Congress but has not become law. See PARTS
Act, S. 780, 113th Cong. (2013); J.A. 664. “[I]t is not our
job to apply laws that have not yet been written.” See Sony
Corp. of Am. v. Universal City Studios, Inc., 464 U.S. 417,
456 (1984).
3

(11 of 18)

Case: 18-1613

12

Document: 51-2

Page: 12

Filed: 07/11/2019

AUTO. BODY PARTS ASS’N v. FORD GLOB. TECHS., LLC

II
We next address ABPA’s contention that Ford’s patents are unenforceable against its members under the related doctrines of exhaustion and repair.
A
“The franchise which the patent grants, consists altogether in the right to exclude every one from making, using, or vending the thing patented, without the permission
of the patentee.” Bloomer v. McQuewan, 55 U.S. 539, 549
(1852). But when the patentee sells his invention, the
thing sold “is no longer within the limits of the monopoly.”
Id.; see also United States v. Masonite Corp., 316 U.S. 265,
277–78 (1942). This “well-established” rule, dubbed exhaustion, “marks the point where patent rights yield to the
common law principle against restraints on alienation.”
Impression Prods., Inc. v. Lexmark Int’l, Inc., 137 S. Ct.
1523, 1531 (2017). An authorized sale compensates the patentee for his invention. After such a sale, the patentee
may no longer “‘control the use or disposition’ of the product.” Id. (quoting United States v. Univis Lens Co.,
316 U.S. 241, 250 (1942)). And the purchaser may use or
dispose of that product without incurring liability for infringement. See, e.g., ExcelStor Tech., Inc. v. Papst Licensing GMBH & Co. KG, 541 F.3d 1373, 1376 (Fed. Cir. 2008)
(“patent exhaustion is a defense to patent infringement”).
Ford concedes that when it sells an F-150, its patents
are exhausted as to the components actually sold as part of
that truck. Oral Arg. at 17:58–18:24, http://oralarguments.cafc.uscourts.gov/default.aspx?fl=2018-1613.mp3.
ABPA argues that exhaustion extends further, asserting
that the sale of an F-150 truck totally exhausts any design
patents embodied in the truck and permits use of Ford’s
designs on replacement parts so long as those parts are intended for use with Ford’s trucks. See Appellant’s Br. 43–
45. But exhaustion attaches only to items sold by, or with
the authorization of, the patentee. See Jazz Photo Corp. v.

(12 of 18)

Case: 18-1613

Document: 51-2

Page: 13

Filed: 07/11/2019

AUTO. BODY PARTS ASS’N v. FORD GLOB. TECHS., LLC

13

Int’l Trade Comm’n, 264 F.3d 1094, 1105 (Fed. Cir. 2001)
(explaining that an authorized sale “‘exhausts’ the patentee’s right to control further sale and use of that article”
but does not permit a “second creation of the patented entity” (emphasis added)), overruled on other grounds by Impression Prod., 137 S. Ct. at 1538; see also Bowman v.
Monsanto Co., 569 U.S. 278, 286 (2013) (“The exhaustion
doctrine is limited to the ‘particular item’ sold . . . .”).
ABPA’s members’ sales are not authorized by Ford; it follows that exhaustion does not protect them. See Helferich
Patent Licensing, LLC v. N.Y. Times Co., 778 F.3d 1293,
1302 (Fed. Cir. 2015) (“[T]he decisions finding exhaustion . . . have done so only when . . . an authorized acquirer
was using the same invention by infringing the asserted
claims.” (emphases added)).
ABPA asks us to “adapt[]” this rule for design cases.
See Appellant’s Br. 49. But we apply the same rules to design and utility patents whenever possible. See 35 U.S.C.
§ 171(b) (“The provisions of this title relating to patents for
inventions shall apply to patents for designs, except as otherwise provided.”). Accordingly, we have held that principles of prosecution history estoppel, inventorship,
anticipation, and obviousness apply to both design patents
and utility patents. See, e.g., Pac. Coast Marine Windshields Ltd. v. Malibu Boats, LLC, 739 F.3d 694, 702
(Fed. Cir. 2014) (“The same principles of public notice that
underlie prosecution history estoppel apply to design patents as well as utility patents.”); Hoop v. Hoop, 279 F.3d
1004, 1007 (Fed. Cir. 2002) (“We apply the same standard
of inventorship to design patents that we require for utility
patents.”); Hupp v. Siroflex of Am., Inc., 122 F.3d 1456,
1461 (Fed. Cir. 1997) (“In determining whether a design
patent is invalid based on a description in a printed publication, . . . the factual inquiry is the same as that which determines anticipation by prior publication of the subject
matter of a utility patent . . . .”); In re Borden, 90 F.3d 1570,
1574 (Fed. Cir. 1996) (“Design patents are subject to the

(13 of 18)

Case: 18-1613

14

Document: 51-2

Page: 14

Filed: 07/11/2019

AUTO. BODY PARTS ASS’N v. FORD GLOB. TECHS., LLC

same conditions on patentability as utility patents, including the nonobviousness requirement of 35 U.S.C. § 103.”).
We see no persuasive reason to depart from this standard
for the exhaustion doctrine.
ABPA points to the Supreme Court’s decision in
Quanta Computer, Inc. v. LG Electronics, Inc., 553 U.S. 617
(2008), to assert that we should nevertheless create a design-patent-specific rule for exhaustion.
Appellant’s
Br. 49. In Quanta, the Court rejected an attempt to exempt
method claims from exhaustion. See Quanta, 553 U.S.
at 628. After reviewing the history and purpose of the doctrine, the Court noted that “[o]ur precedents do not differentiate transactions involving embodiments of patented
methods or processes from those involving patented apparatuses or materials.” Id. at 628–29. It therefore held that
like other utility patents, method patents are exhausted by
the authorized sale of an item embodying the claimed invention. Id. at 638. And accordingly, it determined that
the sale of a microprocessor embodying a method patent
exhausts that patent. See id. It did not, however, hold that
purchasers of those microprocessors could make their own,
new microprocessors using the patented invention, as
ABPA suggests. Far from supporting ABPA’s position,
Quanta supports our reluctance to establish special rules
for design patents—our precedents do not differentiate
transactions involving embodiments of patented designs
from those involving patented processes or methods. See,
e.g., Jazz Photo, 264 F.3d at 1110 (“[T]he principle of exhaustion applies to the design patents as well as to the utility patents.”).
B
ABPA’s right of repair argument is equally unpersuasive. The right of use transferred to a purchaser by an authorized sale “include[s] the right to repair the patented
article.” Kendall Co. v. Progressive Med. Tech., Inc.,
85 F.3d 1570, 1573 (Fed. Cir. 1996). The right of repair

(14 of 18)

Case: 18-1613

Document: 51-2

Page: 15

Filed: 07/11/2019

AUTO. BODY PARTS ASS’N v. FORD GLOB. TECHS., LLC

15

does not, however, permit a complete reconstruction of a
patented device or component. See Helferich, 778 F.3d
at 1303–05 (noting purchaser cannot recreate patented
product); Kendall, 85 F.3d at 1573–74 (explaining that
while a purchaser may not undertake a “complete ‘reconstruction’” of the patented device, he may replace “individual unpatented components” of the patented article
(emphasis added)). And it does not permit a purchaser to
infringe other patents by manufacturing separately patented components of the purchased article. See Aro Mfg.
Co. v. Convertible Top Replacement Co., 365 U.S. 336, 346
(1961) (“[R]eplacement of a spent, unpatented element does
not constitute reconstruction. The decisions of this Court
require the conclusion that reconstruction of a patented entity, comprised of unpatented elements, is limited to such
a true reconstruction of the entity as to ‘in fact make a new
article’ . . . .” (emphasis added) (quoting United States v.
Aluminum Co. of Am., 148 F.2d 416, 425 (2d Cir. 1945)
(Hand, J.))); Helferich, 778 F.3d at 1303–05 (noting prohibition on reconstruction).
ABPA argues that purchasers of Ford’s F-150 trucks
are licensed to repair those trucks using replacement parts
that embody Ford’s hood and headlamp design patents.
But straightforward application of long-standing case law
compels the opposite conclusion. Over 150 years ago, a
New Hampshire court considered facts similar to those of
this case in Aiken v. Manchester Print Works, 1 F. Cas. 245
(C.C.D.N.H. 1865). There, the patentee sold a patented
knitting machine whose needles wore out on a regular basis. Id. at 245–46. Though the needles were covered by a
separate patent, the accused infringers argued that they
could properly manufacture replacement needles to continue using the knitting machine they had purchased. The
court disagreed, holding that “the needle is subject to a patent, and in making and using it they have infringed.” Id.
at 247. It distinguished an earlier Supreme Court case in
which a purchaser had been permitted to replace the

(15 of 18)

Case: 18-1613

16

Document: 51-2

Page: 16

Filed: 07/11/2019

AUTO. BODY PARTS ASS’N v. FORD GLOB. TECHS., LLC

knives used in a patented cutting machine, noting “the cutters and knives, in [Wilson v. Simpson, 50 U.S. 109 (1850)],
were not subject to a patent.” Id. The Supreme Court endorsed Aiken’s reasoning in Morgan Envelope Co. v. Albany
Perforated Wrapping Paper Co., 152 U.S. 425, 435–36
(1894), and its reasoning governs here. Ford’s patents
claim “[t]he ornamental design for exterior of vehicle hood,”
see D’299 patent, Claim, and “[t]he ornamental design for
a vehicle head lamp,” see D’685 patent, Claim. The designs
may be embodied in the hoods and headlamps that form
part of the full F-150 truck or in separate hoods and headlamps. But though a sale of the F-150 truck permits the
purchaser to repair the designs as applied to the specific
hood and headlamps sold on the truck, the purchaser may
not create new hoods and headlamps using Ford’s designs.
Like the needles in Aiken, such new hoods and headlamps
are subject to Ford’s design patents, and manufacturing
new copies of those designs constitutes infringement.
ABPA attempts to distinguish Aiken and its progeny by
asserting that these cases apply only to utility patents.
ABPA urges us to adopt a new rule that recognizes the
“unique nature” of design patents. See Appellant’s Reply
Br. 18. In particular, ABPA claims that the statutory language authorizing design patents dictates such a rule. Unlike 35 U.S.C. § 101, which authorizes utility patents for a
“process, machine, manufacture, or composition of matter,
or any new and useful improvement thereof,” 35 U.S.C.
§ 171 permits design patents for a “design for an article of
manufacture.” ABPA argues that because “article of manufacture,” is a term broad enough to include both a product
component and the product itself, see Samsung Elecs. Co.
v. Apple Inc., 137 S. Ct. 429, 434 (2016), sale of either the
component (i.e., the hood or headlamp) or the whole product (i.e., the F-150) totally exhausts a design patent and
permits unlimited repair. See Appellant’s Br. 43–58.
We disagree. In our view, the breadth of the term “article of manufacture” simply means that Ford could

(16 of 18)

Case: 18-1613

Document: 51-2

Page: 17

Filed: 07/11/2019

AUTO. BODY PARTS ASS’N v. FORD GLOB. TECHS., LLC

17

properly have claimed its designs as applied to the entire
F-150 or as applied to the hood and headlamp. To determine what repair rights apply, we look to what Ford actually claimed. As always, “the name of the game is the
claim.” Arlington Indus., Inc. v. Bridgeport Fittings, Inc.,
632 F.3d 1246, 1255 n.2 (Fed. Cir. 2011) (quoting Giles S.
Rich, The Extent of the Protection and Interpretation of
Claims–American Perspectives, 21 Int’l Rev. Indus. Prop. &
Copyright L. 497, 499, 501 (1990)). Ford chose to claim designs as applied to portions of particular components, and
the law permits it to do so. See, e.g., Samsung, 137 S. Ct.
at 435; Gorham, 81 U.S. at 512. That the auto-body components covered by Ford’s patents may require replacement does not compel a special rule. Just as the patentee
in Aiken could have only claimed the needles in conjunction
with the knitting machine, Ford could have only claimed
its design as applied to the whole truck. Unfortunately for
ABPA, Ford did not do so; the designs for Ford’s hood and
headlamp are covered by distinct patents, and to make and
use those designs without Ford’s authorization is to infringe. See Aiken, 1 F. Cas. at 247. 4
We thus reject ABPA’s attempts to develop design patent-specific exhaustion and repair rules. 5 Consequently,

ABPA asserts that Ford’s purchasers are unaware
of the design patents covering the hood and headlamp and
suggests that as a result we should permit their use of the
patented designs. Appellant’s Br. 56–57. Even if purchasers are unaware—and ABPA cites no factual support for
that assertion—direct infringement does not require
knowledge of a patent. See Glob.-Tech Appliances, Inc. v.
SEB S.A., 563 U.S. 754, 761 n.2 (2011) (“[A] direct infringer’s knowledge or intent is irrelevant.”).
5
As an additional argument for affirmance, Ford asserts that because ABPA and its members are not themselves the purchasers of Ford’s trucks, they cannot benefit
4

(17 of 18)

Case: 18-1613

18

Document: 51-2

Page: 18

Filed: 07/11/2019

AUTO. BODY PARTS ASS’N v. FORD GLOB. TECHS., LLC

we affirm the district court’s ruling that ABPA has not
shown that Ford’s designs for an F-150 hood and headlamp
are exhausted when Ford sells an F-150 truck.
CONCLUSION
Having considered the parties’ remaining arguments
and found them unpersuasive, we affirm the district court.
AFFIRMED
COSTS
Costs to Appellee.

from an implied license to repair the trucks. See Appellee’s
Br. 43–45. For purposes of this opinion, we do not reach
this issue.

(18 of 18)

APPENDIX B
(Denial of Rehearing)

Case: 18-1613

Document: 58

Page: 1

Filed: 09/13/2019

NOTE: This order is nonprecedential.

United States Court of Appeals
for the Federal Circuit
______________________

AUTOMOTIVE BODY PARTS ASSOCIATION,
Plaintiff-Appellant
v.
FORD GLOBAL TECHNOLOGIES, LLC,
Defendant-Appellee
______________________
2018-1613
______________________
Appeal from the United States District Court for the
Eastern District of Michigan in No. 2:15-cv-10137-LJMRSW, Judge Laurie J. Michelson.
______________________
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
______________________
Before PROST, Chief Judge, NEWMAN, LOURIE, SCHALL *,
DYK, MOORE, O’MALLEY, REYNA, WALLACH, TARANTO,
CHEN, HUGHES, and STOLL, Circuit Judges.
PER CURIAM.

Circuit Judge Schall participated only in the decision
on the petition for panel rehearing.
*

Case: 18-1613

2

Document: 58

Page: 2

Filed: 09/13/2019

AUTOMOTIVE BODY PARTS ASS'N v. FORD GLOBAL
TECHNOLOGIES, LLC

ORDER
Appellant Automotive Body Parts Association filed a
combined petition for panel rehearing and rehearing en
banc. The petition was referred to the panel that heard the
appeal, and thereafter the petition for rehearing en banc
was referred to the circuit judges who are in regular active
service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on September 20,
2019.
FOR THE COURT
September 13, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

